10254                    Federal Register / Vol. 68, No. 42 / Tuesday, March 4, 2003 / Notices 


ACTION:   Notice.                              Procedure: Interested persons may        portion of the document. There are no
                                             present data, information, or views,       other changes.
   This notice announces a forthcoming       orally or in writing, on issues pending    FOR FURTHER INFORMATION CONTACT:
meeting of a public advisory committee       before the committee. Written              Kathleen Reedy or LaNise Giles, Center
of the Food and Drug Administration          submissions may be made to the contact     for Drug Evaluation and Research (HFD–
(FDA). The meeting will be open to the       person by March 7, 2003. Oral              21), Food and Drug Administration,
public.                                      presentations from the public will be      5600 Fishers Lane (for express delivery,
   Name of Committee: Blood Products         scheduled between approximately 9:15       5630 Fishers Lane, rm. 1093), Rockville,
Advisory Committee.                          a.m. and 9:45 a.m.; and 3 p.m. and 4:30    MD 20857, 301–827–7001, or FDA
   General Function of the Committee:        p.m. on March 13, 2003, and between        Advisory Committee Information Line,
To provide advice and                        approximately 9 a.m. and 9:30 a.m.; and    1–800–741–8138 (301–443–0572 in the
recommendations to the agency on             10:50 a.m. and noon on March 14, 2003.     Washington, DC area), code 12539.
FDA’s regulatory issues.                     Time allotted for each presentation may    Please call the Information Line for up-
   Date and Time: The meeting will be        be limited. Those desiring to make         to-date information on this meeting.
held on March 13, 2003, from 8 a.m. to       formal oral presentations should notify    SUPPLEMENTARY INFORMATION: In the
6 p.m., and March 14, 2003, from 8:30        the contact person before March 7, 2003,   Federal Register of February 3, 2003 (68
a.m. to 4 p.m.                               and submit a brief statement of the        FR 5297), FDA announced that a
   Location: Hilton DC North—                general nature of the evidence or          meeting of the Advisory Committee for
Gaithersburg, Grand Ballrooms A, B, C,       arguments they wish to present, the        Pharmaceutical Science would be held
and D, 620 Perry Pkwy., Gaithersburg,        names and addresses of proposed            on March 12 and 13, 2003. On page
MD.                                          participants, and an indication of the     5298, in the first column, the second
   Contact: Linda A. Smallwood, Center       approximate time requested to make         sentence in the Agenda portion of the
for Biologics Evaluation and Research        their presentation.                        document is amended to read as
(HFM–302), Food and Drug                       FDA regrets that was unable to           follows:
Administration, 1401 Rockville Pike,         publish this notice 15 days prior to the     On March 13, 2003, the committee
Rockville, MD 20852, 301–827–3514, or        March 13 and 14, 2003, Blood Products      will: (1) Discuss and provide direction
FDA Advisory Committee Information           Advisory Committee meeting. Because        for future subcommittee: Pharmacology/
Line, 1–800–741–8138 (301–443–0572           the agency believes there is some          Toxicology Subcommittee; (2) receive
in the Washington, DC area), code            urgency to bring these issues to public    an update on the Office of
19516. Please call the Information Line      discussion and qualified members of the    Pharmaceutical Science research
for up-to-date information on this           Blood Products Advisory Committee          projects; (3) discuss and provide
meeting. FDA welcomes the attendance         were available at this time, the           comments on dose content uniformity,
of the public at its advisory committee      Commissioner of Food and Drugs             parametric interval test for aerosol
meetings and will make every effort to       concluded that it was in the public        products; (4) discuss and provide
accommodate persons with physical            interest to hold this meeting even if      comments on bioequivalence/
disabilities or special needs. If you        there was not sufficient time for the      bioavailability of endogenous drugs; and
require special accommodations due to        customary 15-day public notice.            (5) discuss and provide comments on
a disability, please contact Linda A.          Notice of this meeting is given under    comparability protocols.
Smallwood or Pearline K. Muckelvene          the Federal Advisory Committee Act (5        Notice of this meeting is given under
at 301–827–1281 at least 7 days in           U.S.C. app. 2).                            the Federal Advisory Committee Act (5
advance of the meeting. Persons                Dated: February 26, 2003.                U.S.C. app. 2).
attending FDA’s advisory committee           William K. Hubbard,                          Dated: February 26, 2003.
meetings are advised that the agency is      Associate Commissioner for Policy and      William K. Hubbard,
not responsible for providing access to      Planning.                                  Associate Commissioner for Policy and
electrical outlets.                          [FR Doc. 03–4974 Filed 3–3–03; 8:45 am]    Planning.
   Agenda: On March 13, 2003, the            BILLING CODE 4160–01–S                     [FR Doc. 03–4975 Filed 3–3–03; 8:45 am]
following committee updates are                                                         BILLING CODE 4160–01–S
tentatively scheduled: FDA
consolidation, Medical Device User Fee       DEPARTMENT OF HEALTH AND
and Modernization Act, Clinical              HUMAN SERVICES                             DEPARTMENT OF HEALTH AND
Laboratory Improvement Amendments                                                       HUMAN SERVICES
waiver for human immunodeficiency,           Food and Drug Administration
type 1 human immunodeficiency virus-                                                    Office of Inspector General
1 (HIV–1) rapid tests, and the Trans Net     Advisory Committee for
pilot program. The committee will hear       Pharmaceutical Science; Amendment          Publication of OIG Special Fraud Alert
presentations, discuss, and provide          of Notice                                  on Telemarketing by Durable Medical
recommendations on the topic of West                                                    Equipment Suppliers
                                             AGENCY:   Food and Drug Administration,
Nile Virus testing. On March 14, 2003,       HHS.                                       AGENCY: Office of Inspector General
the following committee updates are          ACTION:   Notice.                          (OIG), HHS.
tentatively scheduled: Limitations on                                                   ACTION: Notice.
validation of anticoagulant and additive       The Food and Drug Administration
solutions to permit freezing and             (FDA) is announcing an amendment to        SUMMARY:    This Federal Register notice
irradiation of red cells, and particulates   the notice of meeting of the Advisory      sets forth the recently issued OIG
in blood bags. The committee will hear       Committee for Pharmaceutical Science.      Special Fraud Alert addressing
presentations, discuss, and provide          This meeting was announced in the          telemarketing by durable medical
recommendations on the topic of              Federal Register of February 3, 2003 (68   equipment (DME) suppliers. For the
extensions of the dating period for          FR 5297). The amendment is being           most part, OIG Special Fraud Alerts
pooled platelets.                            made to reflect a change in the Agenda     address national trends in health care
                                           Federal Register / Vol. 68, No. 42 / Tuesday, March 4, 2003 / Notices                                                                 10255


fraud, including potential violations of                                    has published in the Federal Register                                Notwithstanding the clear statutory
the anti-kickback statute for federal                                       the texts of 11 previously-issued Special                         prohibition, the Office of Inspector
health care programs. This Special                                          Fraud Alerts.1                                                    General has received credible
Fraud Alert specially highlights the                                           This Special Fraud Alert focuses on                            information that some DME suppliers
statutory provision prohibiting DME                                                                                                           continue to use independent marketing
                                                                            section 1834(a)(17) of the Social
suppliers from making unsolicited                                                                                                             firms to make unsolicited telephone
                                                                            Security Act, which prohibits suppliers
telephone calls to Medicare                                                                                                                   calls to Medicare beneficiaries to market
                                                                            of DME, except under limited
beneficiaries regarding the furnishing of                                                                                                     DME. Suppliers cannot do indirectly
                                                                            circumstances, from making unsolicited
a covered item.                                                                                                                               that which they are prohibited from
                                                                            telephone calls to Medicare
FOR FURTHER INFORMATION CONTACT: Joel                                                                                                         doing directly. Except in the three
                                                                            beneficiaries regarding the furnishing of
Schaer, Office of Counsel to the                                                                                                              specific circumstances described in the
                                                                            a covered item, and possible
Inspector General, (202) 619–0089.                                                                                                            statute, section 1834(a)(17) prohibits
                                                                            telemarketing practices by DME
SUPPLEMENTARY INFORMATION:                                                                                                                    unsolicited telemarketing by a DME
                                                                            suppliers through the use of
                                                                                                                                              supplier to Medicare beneficiaries,
I. Background                                                               independent marketing firms.
                                                                                                                                              whether contact with a beneficiary is
   The Office of Inspector General (OIG)                                    II. Special Fraud Alert: Telemarketing                            made by the supplier directly or by
was established at the Department of                                        by Durable Medical Equipment                                      another party on the DME supplier’s
Health and Human Services by Congress                                       Suppliers (January 2003)                                          behalf. Moreover, a DME supplier is
in 1976 to identify and eliminate fraud,                                                                                                      responsible for verifying that marketing
waste, and abuse in the department’s                                           Section 1834(a)(17) of the Social                              activities performed by third parties
programs and to promote efficiency and                                      Security Act prohibits suppliers of                               with whom the supplier contracts or
economy in departmental operations.                                         durable medical equipment (DME) from                              otherwise does business do not involve
The OIG carries out this mission                                            making unsolicited telephone calls to                             prohibited activity and that information
through a nationwide program of audits,                                     Medicare beneficiaries regarding the                              purchased from such third parties was
investigations, and inspections. To                                         furnishing of a covered item, except in                           neither obtained, nor derived, from
reduce fraud and abuse in the federal                                       three specific situations: (i) the                                prohibited activity. If a claim for
health care programs, including                                             beneficiary has given written                                     payment is submitted for items or
Medicare and Medicaid, the OIG                                              permission to the supplier to make                                services generated by a prohibited
actively investigates fraudulent schemes                                    contact by telephone; (ii) the contact is                         solicitation, both the DME supplier and
that are used to obtain money from                                          regarding a covered item the supplier                             the telemarketer are potentially liable
these programs and, when appropriate,                                       has already furnished the beneficiary; or                         for criminal, civil, and administrative
issues Special Fraud Alerts that identify                                   (iii) the supplier has furnished at least                         penalties for causing the filing of a false
practices in the health care industry that                                  one covered item to the beneficiary                               claim.
are particularly vulnerable to abuse.                                       during the preceding fifteen months.
                                                                                                                                              What to do if you Have Information
   The OIG issues Special Fraud Alerts                                      Section 1834(a)(17)(B) also specifically
                                                                                                                                              About Fraud and Abuse Against
based on information it obtains                                             prohibits payment to a supplier who
                                                                                                                                              Medicare or Medicaid Programs
concerning particular fraudulent or                                         knowingly submits a claim generated
abusive practices within the health care                                    pursuant to a prohibited telephone                                  If you have information about DME
industry. Special Fraud Alerts are                                          solicitation. Accordingly, such claims                            suppliers or telemarketers engaging in
intended for widespread dissemination                                       for payment are false and violators are                           any of the activities described above,
to the health care provider community,                                      potentially subject to criminal, civil,                           contact any of the regional offices of the
as well as those charged with                                               and administrative penalties, including                           Office of Inspector General, U.S.
administering the Medicare and                                              exclusion from federal health care                                Department of Health and Human
Medicaid programs. To date, the OIG                                         programs.                                                         Services, at the following locations:

                                                   Regional offices                                                                          States served                 Telephone

Boston .......................................................................................................................     MA, VT, NH, ME, RI, CT              617–565–2664.
New York ...................................................................................................................       NY, NJ, PR, VI                      212–264–1691.
Philadelphia ...............................................................................................................       PA, MD, DE, WV, VA, DC              215–861–4576.
Atlanta .......................................................................................................................    GA, KY, NC, SC, FL, TN, AL          404–562–7603.
Chicago .....................................................................................................................      IL, MN, WI, MI, IN, OH              312–353–2740.
Dallas .........................................................................................................................   TX, NM, OK, AR, LA, MS              214–767–8406.
Kansas City ...............................................................................................................        CO, UT, WY, MT, ND, SD, NE, KS,     816 426–4000.
                                                                                                                                      MO, IA
Los Angeles ...............................................................................................................        AZ, NV, So. CA, HI,                 714–246–8302.
San Francisco ...........................................................................................................          No. CA, AK, OR, ID, WA, AK          415–437–7961.




  1 All OIG Special Fraud Alerts are available on

the Internet at the OIG Web site at http://
oig.hhs.gov/fraud/fraudalerts.html#1.
10256                     Federal Register / Vol. 68, No. 42 / Tuesday, March 4, 2003 / Notices 


  Dated: February 3, 2003.                   be collected; and (4) Minimize the            DEPARTMENT OF HOUSING AND
Janet Rehnquist,                             burden of the collection of information       URBAN DEVELOPMENT
Inspector General.                           on those who are to respond; including
                                                                                           [Docket No. FR–4820–N–06]
[FR Doc. 03–5004 Filed 3–3–03; 8:45 am]      the use of appropriate automated
BILLING CODE 4150–01–P                       collection techniques or other forms of       Notice of Proposed Information
                                             information technology, e.g., permitting      Collection: Comment Request; Funds
                                             electronic submission of responses.           Authorizations for Reserve for
DEPARTMENT OF HOUSING AND                       This Notice also lists the following       Replacements/Residual Receipts
URBAN DEVELOPMENT                            information:                                  Funds
[Docket No. FR–4820–N–05]                       Title of Proposal: Previous                AGENCY:  Office of the Assistant
                                             Participation Certification.                  Secretary for Housing—Federal Housing
Notice of Proposed Information                                                             Commissioner, HUD.
Collection: Comment Request;                    OMB Control Number, if applicable:
                                             2502–0118.                                    ACTION: Notice.
Previous Participation Certification
                                                Description of the need for the            SUMMARY: The proposed information
AGENCY: Office of the Assistant
                                             information and proposed use: This            collection requirement described below
Secretary for Housing—Federal Housing
                                             information is necessary to ensure that       will be submitted to the Office of
Commissioner, HUD.
                                             responsible individuals and                   Management and Budget (OMB) for
ACTION: Notice.                              organizations participate in HUD’s            review, as required by the Paperwork
SUMMARY: The proposed information            multifamily housing programs. The             Reduction Act. The Department is
collection requirement described below       information will be used to evaluate          soliciting public comments on the
will be submitted to the Office of           participants’ previous participation in       subject proposal.
Management and Budget (OMB) for              government programs and ensure that           DATES: Comments Due Date: May 5,
review, as required by the Paperwork         the past record is acceptable prior to        2003.
Reduction Act. The Department is             granting approval to participate in
                                                                                           ADDRESSES: Interested persons are
soliciting public comments on the            HUD’s multifamily housing programs.
                                                                                           invited to submit comments regarding
subject proposal.                            The collection of this information will
                                                                                           this proposal. Comments should refer to
DATES: May 5, 2003.                          be 100 percent automated.                     the proposal by name and/or OMB
ADDRESSES: Interested persons are               Agency form numbers, if applicable:        Control Number and should be sent to:
invited to submit comments regarding         HUD–2530.                                     Wayne Eddins, Reports Management
this proposal. Comments should refer to         Estimation of the total numbers of         Officer, Department of Housing and
the proposal by name and/or OMB              hours needed to prepare the information       Urban Development, 451 7th Street,
Control Number and should be sent to:        collection including number of                SW., L’Enfant Plaza Building, Room
Wayne Eddins, Reports Management             respondents, frequency of response, and       8003, Washington, DC 20410, or
Officer, Department of Housing and           hours of response: The estimated              WaynelEddins@hud.gov.
Urban Development, 451 7th Street,           number of respondents is 4,300; the           FOR FURTHER INFORMATION CONTACT:
SW., L’Enfant Plaza Building, Room                                                         William Hill, Director, Policy and
                                             frequency of responses is 1 unless
8003, Washington, DC 20410, or                                                             Participation Standards Division,
                                             additional actions require additional
WaynelEddins@hud.gov.                                                                      Department of Housing and Urban
                                             submissions; estimated time to gather
FOR FURTHER INFORMATION CONTACT:             and enter the information into the            Development, 451 7th Street, SW.,
Beverly J. Miller, Director, Office of       automated system is estimated to be 30        Washington, DC 20410, telephone
Multifamily Asset Management,                minutes per submission, and the               number (202) 708–3730 (this is not a
Department of Housing and Urban              estimated total annual burden hours are       toll-free number).
Development, 451 7th Street, SW.,            2,150.                                        SUPPLEMENTARY INFORMATION: The
Washington, DC 20410, telephone                                                            Department is submitting the proposed
number (202) 708–3730 (this is not a            Status of the proposed information
                                                                                           information collection to OMB for
toll-free number).                           collection: Revision of a currently
                                                                                           review, as required by the Paperwork
SUPPLEMENTARY INFORMATION: The
                                             approved collection.                          Reduction Act of 1995 (44 U.S.C.
Department if submitting the proposed          Authority: The Paperwork Reduction Act      Chapter 35, as amended).
information collection to OMB for            of 1995, 44 U.S.C., Chapter 35, as amended.      This Notice is soliciting comments
review, as required by the Paperwork           Dated: February 24, 2003.                   from members of the public and affected
Reduction Act of 1995 (44 U.S.C.                                                           agencies concerning the proposed
                                             John C. Weicher,
Chapter 35, as amended).                                                                   collection of information to: (1) Evaluate
   This Notice is soliciting comments        Assistant Secretary for Housing—Federal       whether the proposed collection is
from members of the public and affected      Housing Commissioner.                         necessary for the proper performance of
agencies concerning the proposed             [FR Doc. 03–4939 Filed 3–3–03; 8:45 am]       the functions of the agency, including
collection of information to: (1) Evaluate   BILLING CODE 4210–27–M                        whether the information will have
whether the proposed collection is                                                         practical utility; (2) Evaluate the
necessary for the proper performance of                                                    accuracy of the agency’s estimate of the
the functions of the agency, including                                                     burden of the proposed collection of
whether the information will have                                                          information; (3) Enhance the quality,
practical utility; (2) Evaluate the                                                        utility, and clarity of the information to
accuracy of the agency’s estimate of the                                                   be collected; and (4) Minimize the
burden of the proposed collection of                                                       burden of the collection of information
information; (3) Enhance the quality,                                                      on those who are to respond; including
utility, and clarity of the information to                                                 the use of appropriate automated
